IN THE SUPREME COURT OF THE UNITED STATES

JAMES ROBERT MILLER,
PETITIONER,
vs.

LNITED STATES OF AMERICA,
RESPONDENT.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to 18 U.S.C. Section 3006A(dX6) and Rule 39 of this Court,

Petitioner James Robert Miller asks leave to file the attached Petition for

Writ of Certiorari to the United States Court of Appeals for the Ninth Circuit
without pre-payment of fees or costs and to proceed in forma pauperis.
Petitioner was represented by counsel appointed pursuant to l8 U.S.C.
Section 30064 on appeal to the Ninth Circuit Court of Appeals.

Respectfu

lly submitted,

KATHERINE KIMBALL WINDSOR
65 N. Raymond Avenue, Suite 320
Pasadena, California 91 103
(213) 663-92t9
Attorney for Petitioner

